No. 20 -

In The
SUPREME COURT OF THE UNITED STATES
Dr. Yuri J. Stoyanov,
Petitioner
v.
Mr. Thomas B. Mody, Acting,
Secretary of the Navy; et. al.,
Respondents.

PROOF OF SERVICE
I, Yuri Stoyanov, do swear or declare that on this date, February 22, 2020, as
required by Supreme Court Rule 29. I have served PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding represented by party’s counsel
and on the Solicitor General of the United States by the United States mail
properly addressed to each of them and with first-class postage prepaid. The
names and addresses of those served are as follows:
U. S. Solicitor General
Room 5614
Department of Justice
Pennsylvania Ave., N. W.
Washington, DC 20530-0001

Robert Hur
United States Attorney
Kelly M. Marzullo
Assistant U. S. Attorney
36 South Charles St., 4th Floor
Baltimore, Maryland 21201
Tel: (410) 209-4800
’ Fax:(410)962-2310

I declare under penalty of perjury that the foregoing is true and correct.

YmI
Yuri J. Stoyanov,
7560 Pindell School Road
Fulton, MD 20759
(202) 491-4671

RECEIVED
FEB 2 5 2020
8,Figg|M0FF^L5BsK

